No. 19-278
IN THE

Supreme Court of the Guited States

PFIZER, INC. AND GREENSTONE LLC,
Petitioners,

v.

SUPERIOR COURT OF CALIFORNIA FOR THE COUNTY OF
Los ANGELES, ET AL.,
Respondents.

On Petition For A Writ Of Certiorari
To The California Court Of Appeal

CERTIFICATE OF COMPLIANCE WITH WORD
LIMITATIONS FOR BRIEF OF THE AMERICAN
TORT REFORM ASSOCIATION, THE NATIONAL

ASSOCIATION OF MANUFACTURERS, THE
PHARMACEUTICAL RESEARCH AND
MANUFACTURERS OF AMERICA AND THE

PRODUCT LIABILITY ADVISORY COUNCIL AS

AMICI CURIAE IN SUPPORT OF PETITIONERS

JOHN H. BEISNER

Counsel of Record
Jessica D. MILLER
JORDAN M. SCHWARTZ
ZACHARY W. MARTIN
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-7000
John.Beisner@skadden.com

Additional counsel listed on inside cover
Additional counsel

H. SHERMAN JOYCE
LAUREN S. JARRELL
AMERICAN TORT
REFORM ASSOCIATION
1101 Connecticut Avenue,
NW.

Suite 400

Washington, D.C.

20036

(202) 682-1168

PETER TOLSDORF
MANUFACTURERS’
CENTER FOR LEGAL
ACTION

733 10th Street, N.W.
Suite 700

Washington, D.C. 20001
(202) 637-3100

JAMES C. STANSEL
MELISSA B. KIMMEL

THE PHARMACEUTICAL
RESEARCH AND
MANUFACTURERS OF
AMERICA

950 F Street, N.W.
Washington, D.C. 20004
(202) 835-3400

ALAN J. LAZARUS

DRINKER BIDDLE & REATH LLP
Four Embarcadero Center 27th
Floor

San Francisco, CA 94111-4180
(415) 591-7551

Attorneys for Amici Curiae The American Tort Reform Associa-
tion, The National Association of Manufacturers, The
Pharmaceutical Research and Manufacturers of America and
the Product Liability Advisory Council
CERTIFICATE OF COMPLIANCE WITH WORD
LIMITATIONS

As required by Supreme Court Rule 33.1(h), I
certify that the Brief Of The American Tort Reform As-
sociation, The National Association Of Manufacturers,
The Pharmaceutical Research And Manufacturers Of
America And The Product Liability Advisory Council
As Amici Curiae In Support Of Petitioners contains
5,138 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the fore-
going is true and correct.

Executed on October 3, 2019

       

rdan M. ‘artz
kadden, Arps, Slate,
Meagher & Flom LLP

1440 New York Avenue, N.W.
Washington, D.C. 20005
Counsel for Amici Curiae

District of Columbia: SS

Sworn to and subscribed before me
this 3rd day of October, 2019
Katura L.¢ ONAN,

Katrina L. Loffelman

 
